                                        40982              Federal Register / Vol. 73, No. 138 / Thursday, July 17, 2008 / Rules and Regulations

                                        in paragraphs (c)(1)(i) and (c)(1)(ii) of                    section, you must comply within 180                           ■  b. In paragraph (e)(3) by removing the
                                        this section.                                                days after April 25, 2011.                                    citation ‘‘§ 63.2348(a)(4)(vi)(B)’’ and
                                          (i) For storage tanks with an existing                     *     *    *     *     *                                      adding in its place the citation
                                        internal or external floating roof,                                                                                        ‘‘§ 63.2346(a)(4)(vi)(B)’’.
                                        complying with item 1.a. in Table 4 of                       § 63.2390        [Amended]
                                                                                                                                                                   ■ c. In paragraph (e)(3)(ii) by removing
                                        this subpart, you must conduct your                                                                                        the citation ‘‘§ 63.2348(a)(4)(vi)(B)’’ and
                                        initial compliance demonstration the                         ■  5. Section 63.2390 is amended as
                                                                                                     follows:                                                      adding in its place the citation
                                        next time the storage tank is emptied                                                                                      ‘‘§ 63.2346(a)(4)(vi)(B)’’.
                                        and degassed, but not later than                             ■ a. In paragraph (e)(2) by removing the
                                        February 3, 2014.                                            citation ‘‘§ 63.2348(a)(4)(v)’’ and adding                    ■  6. Table 10 to Subpart EEEE of Part 63
                                          (ii) For other storage tanks not                           in its place the citation                                     is amended by revising entry 6. to read
                                        specified in paragraph (c)(1)(i) of this                     ‘‘§ 63.2346(a)(4)(v)’’.                                       as follows:

                                                 TABLE 10 TO SUBPART EEEE OF PART 63.—CONTINUOUS COMPLIANCE WITH WORK PRACTICE STANDARDS
                                                  *                           *                           *                          *                        *                     *                    *

                                                                                                                                                                   You must demonstrate continuous compliance
                                        For each . . .                                               For the following standard . . .                              by . . .


                                                  *                    *                               *                    *               *                                       *                 *
                                        6. Storage tank at an existing, reconstructed,               a. Route emissions to a fuel gas system or                    i. Continuing to meet the requirements speci-
                                          or new affected source meeting any of the                    back to the process.                                           fied in § 63.984(b).
                                          tank capacity and vapor pressure criteria
                                          specified in Table 2 to this subpart, items 1
                                          through 6.
                                                                                                     b. Install and, during the filling of the storage             i. Except for pressure relief devices, moni-
                                                                                                       tank with organic liquids, operate a vapor                     toring each potential source of vapor leak-
                                                                                                       balancing system.                                              age in the system, including, but not limited
                                                                                                                                                                      to pumps, valves, and sampling connec-
                                                                                                                                                                      tions, quarterly during the loading of a stor-
                                                                                                                                                                      age tank using the methods and procedures
                                                                                                                                                                      described in the rule requirements selected
                                                                                                                                                                      for the work practice standard for equipment
                                                                                                                                                                      leak components as specified in Table 4 to
                                                                                                                                                                      this subpart, item 4. An instrument reading
                                                                                                                                                                      of 500 ppmv defines a leak. Repair of leaks
                                                                                                                                                                      is performed according to the repair require-
                                                                                                                                                                      ments specified in your selected equipment
                                                                                                                                                                      leak standards. For pressure relief devices,
                                                                                                                                                                      comply with § 63.2346(a)(4)(v). If no loading
                                                                                                                                                                      of a storage tank occurs during a quarter,
                                                                                                                                                                      then monitoring of the vapor balancing sys-
                                                                                                                                                                      tem is not required.



                                        [FR Doc. E8–16320 Filed 7–16–08; 8:45 am]                    requestors to submit payments for                             and aspects of the advisory opinion
                                        BILLING CODE 6560–50–P                                       advisory opinion costs.                                       process. In response to public comments
                                                                                                     DATES: Effective Date: This final rule is                     received on the interim final
                                                                                                     effective as of July 17, 2008.                                regulations, we published a final rule
                                        DEPARTMENT OF HEALTH AND                                     FOR FURTHER INFORMATION CONTACT:                              (63 FR 38311; July 16, 1998) revising
                                        HUMAN SERVICES                                               Meredith Melmed, Office of Counsel to                         and clarifying various aspects of the
                                                                                                     the Inspector General, (202) 619–0335.                        earlier rulemaking. The rulemaking
                                        Office of the Secretary                                      SUPPLEMENTARY INFORMATION:                                    established procedures for requesting an
                                                                                                                                                                   advisory opinion. Specifically, the rule
                                        42 CFR Part 1008                                             I. Background                                                 provided information to the public
                                                                                                        The Health Insurance Portability and                       regarding costs associated with
                                        Office of Inspector General; Medicare                        Accountability Act of 1996 (HIPAA),                           preparing an opinion and procedures for
                                        and State Health Care Programs: Fraud                        Public Law 104–101, specifically                              submitting an initial deposit and final
                                        and Abuse; Issuance of Advisory                              required the Department of Health and                         payment to OIG for such costs.
                                        Opinions by the OIG                                          Human Services (Department) to                                II. Interim Final Rule With Comment
                                        AGENCY:  Office of Inspector General                         provide a formal guidance process to                          Period and Final Rule
                                        (OIG), HHS.                                                  requesting individuals and entities
                                        ACTION: Final rule.                                          regarding the application of the anti-                          On March 26, 2008, OIG published an
                                                                                                     kickback statute, the safe harbor                             interim final rule amending 42 CFR
                                        SUMMARY:   OIG is adopting in final form,                    provisions, and other OIG health care                         chapter V, subchapter B (73 FR 15937).
rwilkins on PROD1PC63 with RULES




                                        without change, an interim final rule                        fraud and abuse sanctions. OIG                                The comment period ended on April 25,
                                        published on March 26, 2008 (73 FR                           published an interim final rule (62 FR                        2008 and no comments were received.
                                        15937). We received no comments to the                       7350; February 19, 1997) establishing a                       Accordingly, OIG is adopting the
                                        interim final rule. The interim final rule                   new part 1008 in 42 CFR chapter V                             interim final rule as a final rule with no
                                        revised the process for advisory opinion                     addressing various procedural issues                          modifications.


                                   VerDate Aug<31>2005   18:28 Jul 16, 2008       Jkt 214001   PO 00000       Frm 00044   Fmt 4700       Sfmt 4700   E:\FR\FM\17JYR1.SGM   17JYR1
                                                           Federal Register / Vol. 73, No. 138 / Thursday, July 17, 2008 / Rules and Regulations                                         40983

                                           The interim final rule modified the                   the criteria for a significant regulatory             DEPARTMENT OF THE INTERIOR
                                        procedures for submitting an advisory                    action as specified in Executive Order
                                        opinion request by deleting the                          12866.                                                Fish and Wildlife Service
                                        requirements at § 1008.31(b) and
                                                                                                 Unfunded Mandates Reform Act                          50 CFR Part 23
                                        1008.36(b)(6) for an initial payment of
                                        $250 for each advisory opinion request,                     Section 202 of the Unfunded                        [FWS-R9-IA-2008-0003] [96000-1671-0000-
                                        and amending § 1008.31(b) to require                     Mandates Reform Act of 1995, Public                   P5]
                                        that payment for an advisory opinion be                  Law 104–4, requires that agencies assess
                                        made directly to the Treasury of the                     anticipated costs and benefits before                 RIN 1018-AV70
                                        United States, as directed by OIG. In                    issuing any rule that may result in
                                                                                                                                                       Revision of Regulations Implementing
                                        addition, we amended § 1008.43(d) to                     expenditures in any one year by State,
                                                                                                                                                       the Convention on International Trade
                                        state that an advisory opinion will be                   local, or tribal governments, in the
                                                                                                                                                       in Endangered Species of Wild Fauna
                                        issued following receipt by OIG of                       aggregate, or by the private sector, of
                                                                                                                                                       and Flora (CITES); Import and Export
                                        confirmation that payment in full has                    $100 million or more (adjusted annually
                                                                                                                                                       of Sturgeon Caviar
                                        been remitted by the requesting party to                 for inflation). We believe that this final
                                        the Department of Treasury, as directed                  rule will not impose any mandates on                  AGENCY:   Fish and Wildlife Service,
                                        by OIG. We also notified the public that,                State, local, or tribal governments or the            Interior.
                                        as of the effective date of the interim                  private sector that would result in an                ACTION: Direct final rule.
                                        final rule, we no longer would accept                    expenditure of $100 million or more
                                        checks or money orders from requesting                   (adjusted for inflation) in any given                 SUMMARY:   We, the Fish and Wildlife
                                        parties and payments must be made                        year, and that a full analysis under the              Service (FWS), are amending certain
                                        directly to the United States Treasury                   Unfunded Mandates Reform Act is not                   provisions related to international trade
                                        through wire or other electronic funds                   necessary.                                            in sturgeon caviar in the regulations that
                                        transfer. We provided additional                                                                               implement the Convention on
                                                                                                 Executive Order 13132                                 International Trade in Endangered
                                        instructions to the public on our Web
                                        site (www.oig.hhs.gov) for paying fees                      Executive Order 13132, Federalism,                 Species of Wild Fauna and Flora
                                        owed for advisory opinions via wire or                   establishes certain requirements that an              (CITES). We are reducing the quantity of
                                        other electronic funds transfer.                         agency must meet when it promulgates                  caviar that may be imported or exported
                                                                                                 a rule that imposes substantial direct                under the CITES personal effects
                                        III. Regulatory Impact Statement                                                                               exemption and amending the
                                                                                                 requirements or costs on State and local
                                        A. Administrative Procedure Act                          governments, preempts State law, or                   requirements for import of caviar from
                                                                                                 otherwise has Federalism implications.                shared stocks subject to quotas. These
                                           The advisory opinion process is an                                                                          changes are not controversial and will
                                        established OIG program. This final rule                 In reviewing this final rule under the
                                                                                                 threshold criteria of Executive Order                 bring U.S. regulations in line with
                                        is limited to modifying the processing of                                                                      revisions adopted by consensus at the
                                        payments received for advisory opinion                   13132, Federalism, we have determined
                                                                                                 that this final rule would not                        most recent meeting of the Conference
                                        requests. It does not modify eligibility of                                                                    of the Parties to CITES (June 2007). The
                                        a party to request an advisory opinion,                  significantly limit the rights, roles, and
                                                                                                 responsibilities of State or local                    revised regulations will help us more
                                        nor does it modify the standards under                                                                         effectively promote species
                                        which OIG will accept and/or analyze a                   governments. We have determined,
                                                                                                 therefore, that a full analysis under                 conservation, help us continue to fulfill
                                        request. OIG expects that this final rule                                                                      our responsibilities under the Treaty,
                                        will further the public’s interest with                  Executive Order 13132 is not necessary.
                                                                                                                                                       and help those affected by CITES to
                                        minimal burden by confirming the                         C. Paperwork Reduction Act                            understand how to conduct lawful
                                        interim final rule, which deleted the                                                                          international trade in sturgeon caviar.
                                        requirement for an initial payment of a                     In accordance with section
                                                                                                 3506(c)(2)(A) of the Paperwork                        DATES: This rule is effective September
                                        deposit to be credited toward the final
                                        advisory opinion processing costs, and                   Reduction Act of 1995, we are required                15, 2008 without further action, unless
                                        by requiring the use of electronic                       to solicit public comments, and receive               adverse comment is received or
                                        transfers of funds. This final rule will                 final OMB approval, on any information                postmarked on or before August 18,
                                        also provide greater efficiency in                       collection requirements set forth in                  2008. If we receive adverse comment,
                                        processing payments from requestors                      rulemaking. This final rule will not                  then we will publish a timely
                                        and will save staff time.                                impose any information collection                     withdrawal of the rule in the Federal
                                                                                                 burden or affect information currently                Register.
                                        B. Regulatory Analysis                                   collected by OIG.                                     ADDRESSES:   You may submit comments
                                           We have examined the impact of this                      Accordingly, the interim final rule                by one of the following methods:
                                        final rule as required by Executive                      amending 42 CFR chapter V, subchapter                   • Federal eRulemaking Portal: http://
                                        Order 12866, the Regulatory Flexibility                  B, which was published in the Federal                 www.regulations.gov. Follow the
                                        Act (RFA) of 1980, the Unfunded                          Register at 73 FR 15937 on March 26,                  instructions for submitting comments.
                                        Mandates Reform Act of 1995, and                         2008, is adopted as a final rule without                • U.S. mail or hand-delivery: Public
                                        Executive Order 13132.                                   change.                                               Comments Processing, Attn: RIN 1018-
                                                                                                   Dated: July 3, 2008.                                AV70; Division of Policy and Directives
                                        Executive Order 12866 and Regulatory
                                                                                                 Daniel R. Levinson,                                   Management; U.S. Fish and Wildlife
                                        Flexibility Act
                                                                                                                                                       Service; 4401 N. Fairfax Drive, Suite
                                                                                                 Inspector General.
                                          As discussed above, these regulations                                                                        222; Arlington, VA 22203.
                                                                                                   Approved: July 3, 2008.
rwilkins on PROD1PC63 with RULES




                                        were published as an interim final rule                                                                          We will not accept e-mail or faxes. We
                                        on March 26, 2008. Because no notice                     Michael O. Leavitt,                                   will post all comments on http://
                                        of proposed rulemaking was required,                     Secretary.                                            www.regulations.gov. This generally
                                        the provisions of the RFA do not apply.                  [FR Doc. E8–15777 Filed 7–16–08; 8:45 am]             means that we will post any personal
                                        Further, this document does not meet                     BILLING CODE 4152–01–M                                information you provide us (see the


                                   VerDate Aug<31>2005   18:28 Jul 16, 2008   Jkt 214001   PO 00000   Frm 00045   Fmt 4700   Sfmt 4700   E:\FR\FM\17JYR1.SGM   17JYR1
